                              STATE OF OHIO

              EVALUATION OF GRANT OBLIGATIONS,
                 EXPENDITURES AND PAYMENTS

            WORKFORCE INVESTMENT ACT GRANTS
            AND JOB TRAINING PARTNERSHIP ACT
                    TRANSITION FUNDS


            INDEPENDENT ACCOUNTANTS = REPORT
           ON APPLYING AGREED-UPON PROCEDURES

       GRANTS AND TRANSITION FUNDS AWARDED TO
                  THE STATE OF OHIO

            JULY 1, 2000 THROUGH DECEMBER 31, 2001




This agreed-upon procedures report was prepared by R. Navarro & Associates, Inc.,
under contract to the U.S. Department of Labor, Office of Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                        __________________________________________
                        Deputy Inspector General for Audit
                        U.S. Department of Labor



                                                 Report No.: 04-02-004-03-390
                                                 Date Issued: September 20, 2002

                  R. NAVARRO & ASSOCIATES, INC.
                                                      TABLE OF CONTENTS




Acronyms ......................................................................................................................................... iii

Independent Accountants= Report on Applying Agreed-Upon Procedures...........................................1

Summary of Findings..........................................................................................................................2

Background, Scope and Methodology ...............................................................................................3

           Background ...........................................................................................................................3
           Scope and Methodology ........................................................................................................4

Procedures and Findings ....................................................................................................................5

Exhibit I - Financial Status Report, Local Youth Program Activities

Exhibit II – Financial Status Report, Local Adult Program Activities

Exhibit III – Financial Status Report, Local Dislocated Worker Program Activities

Exhibit IV - State of Ohio’s Response
                                    ACRONYMS




AICPA          American Institute of Certified Public Accountants
CFR     Code of Federal Regulations
DOL     U.S. Department of Labor
ETA     Employment and Training Administration
FSR     Financial Status Report
FY      Fiscal Year
HHS     U.S. Department of Health and Human Services
JTPA    Job Training Partnership Act
OGCM    Office of Grants and Contract Management
OIG     Office of the Inspector General
PMS     Payment Management System
PY      Program Year
QUIC    Quarterly Information Consolidated System
WIA     Workforce Investment Act
TANF    Temporary Assistance for Needy Families




                                          iii
Mr. Elliot P. Lewis
Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor


                        INDEPENDENT ACCOUNTANTS== REPORT
                       ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the Procedures and Findings section of this report.
These procedures were agreed to by the U.S. Department of Labor (DOL), Office of Inspector
General (OIG), solely to assist you in evaluating the State of Ohio=s obligation, expenditure and payment
activities for available Job Training Partnership Act (JTPA) balances and Workforce Investment Act
(WIA) funds, that occurred during the period July 1, 2000 through December 31, 2001. In certain
instances, procedures were applied to information reported as of March 31, 2002.

Management of the State of Ohio is responsible for reporting grant obligations and expenditures to the
Employment and Training Administration (ETA). ETA is responsible for recording grant obligations,
reported expenditures and payments in the DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these
procedures is solely the responsibility of your office as the specified user of the report. Consequently,
we make no representation regarding the sufficiency of the procedures performed for the purpose of
which this report has been requested or for any other purpose.

The results of our procedures are described in the Procedures and Findings section of this report.

We were not engaged to, and did not, perform an examination, the objective of which would be the
expression of an opinion on the accompanying information obtained from the respective entities.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to be
and should not be used by anyone other than the specified party.


June 28, 2002
                                    SUMMARY OF FINDINGS


We identified and summarized the Workforce Investment Act (WIA) funds expended and withdrawn as
of December 31, 2001, based on records available at both the State of Ohio and Local Boards, and
found that the accounting records supported expenditure amounts reported on quarterly financial
reports. However, we found that Financial Status Reports (FSRs) were not prepared on the accrual
basis of accounting in accordance with ETA's reporting requirements, and that obligations were
overreported. There were varying instructions provided by ETA as to how obligations should be
reported by the states for Local Board activities.

The FSRs reflect that all of the $261.8 million awarded to the State for the WIA program had been
obligated as of December 31, 2001. However, this is due to the fact that the State reported obligations
equal to the total funds authorized, rather than the actual amounts obligated by the State and Local
Boards. According to State officials, beginning in March 2002, ETA requested that the State report
unliquidated obligations as footnoted information on the quarterly FSRs. Obligation information
reported at March 31, 2002, reflects that $159.9 million were obligated as of that date, leaving $101.9
million in unobligated balances.

Expenditures reported at December 31, 2001, reflect that $93.3 million of the $261.8 million awarded,
had been expended by the State and Local Boards, leaving $168.5 million or 64.4 percent unexpended.
 At this rate of spending, it would take over 2 ½ years to spend the remaining funds, in which time the
State would have received additional WIA allocations.

Payments drawn down by the State as of December 31, 2001, totaled $122.6 million. Of this amount,
the State spent $93.3 million, and had available cash of $29.3 million. This balance represents
approximately 6 months of cash needs and is not considered to be compliant with the cash management
regulations at 31 CFR 205.20.

State of Ohio’s Response

The Ohio Department of Job and Family Services provided a written response to our draft report,
dated September 9, 2002, which is included in its entirety at Exhibit IV. In general, the State agreed
with the information presented in the report. We considered Ohio’s response and made appropriate
changes, including immaterial adjustments to certain amounts.




                                                    2
                       BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA was enacted in 1998. The WIA program was designed to reform prior Federal job training
programs and create a new comprehensive workforce investment system. The reformed system intends
to provide customer-focused services, assist Americans in accessing the tools needed to manage their
careers through information and services, and assist U.S. companies in finding skilled workers. The Act
superseded the Job Training Partnership Act and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL ETA beginning in Program Year (PY) 2000.
 However, unexpended funds from the PY 1998 and PY 1999 JTPA state grants were authorized for
transition into the WIA program. Generally, the states are required to pass through approximately 85
percent of the awards received from DOL to Local Boards (subrecipients). States have the original
program year plus two additional program years to spend the grant funds. However, funds allocated by
a state to a Local Board for any program year are available for expenditure only during that program
year and the succeeding program year. Funds that are not expended by a Local Board in this 2-year
period must be returned to the state.

States are required to report WIA activities on quarterly FSRs. Accrued expenditures and obligations
are key items reported on the FSRs. Accrued expenditures are reported when a liability has been
created through delivery of goods or services, regardless of when cash payment is made. For example,
salaries earned by employees, but not yet paid, should be recorded as accrued expenditures.
Obligations are reported when certain events occur which will require payment by the States or Local
Boards in the same or a future period. Obligations are defined in the WIA regulation as follows:

       . . . . the amounts of orders placed, contracts and subgrants awarded, goods and
       services received, and similar transactions during a funding period that will require
       payment by the recipient or subrecipient during the same or a future period [20 CFR
       660.300].

According to ETA, Office of Grants and Contract Management (OGCM), states have been instructed
to report obligations incurred at the state level (Statewide Activities and Rapid Response) at the time
obligations are incurred by the state. However, for Local Board activities (Local Administration, Youth,
Adult and Dislocated Workers), states have been instructed to report obligations at the time they are
incurred by the Local Boards. This requires the states to collect and consolidate obligation information
for all of the Local Boards located within the state.




                                                   3
WIA grantees obtain grant funds through the U.S. Department of Health and Human Services’ (HHS),
Payment Management System (PMS). Once ETA awards a grant, the recipient can obtain online
access to the PMS system and draw down grant funds on a daily basis.

With the transition of JTPA to WIA, the State of Ohio implemented a significant reorganization that
increased the number of counties acting as service areas. Under JTPA, the State of Ohio was
organized into 31 Private Industry Councils/Boards that provided JTPA services to assigned State
Counties. Under WIA, the State reorganized, resulting in an increase in the number of service areas.
Currently, there are 8 WIA service areas, of which one local area includes 57 sub-areas.

Scope and Methodology

Our agreed-upon procedures encompassed WIA funds awarded to the State of Ohio for PY 2000, FY
2001, PY 2001and FY 2002, as well as PY 1998 and PY 1999 JTPA funds transitioned into the WIA
program. Procedures were applied to grant activities reported by the State and two Local Boards from
July 1, 2000 through December 31, 2001. In certain instances, we obtained information subsequently
reported by the State and Local Boards for the March 31, 2002, reporting period.

In general, our procedures were designed to summarize the State of Ohio’s WIA financial activity
(obligations, payments and expenditures) through December 31, 2001, to determine if the amounts
reported to ETA agreed with the supporting accounting records, and to measure the extent to which the
State and Local Boards have obligated, expended and drawn down WIA funds.




                                                   4
                            PROCEDURES AND FINDINGS


1.   Identify and summarize the total WIA grant funds awarded by the DOL to the State as
     of December 31, 2001.

     The table below shows the total WIA funds awarded by the DOL to the State of Ohio since
     inception of the WIA program:

            Funding          Beginning of              Expiration of Total WIA Funds
            Period          Spending Period           Spending Period         Awarded

            PY 1999/8       JTPA transition June 30, 2002        $ 19.0 million
            PY 2000         July 1, 2000           June 30, 2003        $ 62.0 million
            FY 2001         October 1, 2000        June 30, 2003        $ 50.8 million
            PY 2001         July 1, 2001           June 30, 2004        $ 73.4 million
            FY 2002         October 1, 2001        June 30, 2004        $ 56.6 million


            Total Awards                                                  $261.8 million

     WIA funds are awarded on a PY basis, from July 1 to June 30, except for Youth grants that
     were available in April preceding the start of the PY. However, a portion of PY 2000 and
     2001 funding denoted as “FY” above, was not available until October 1 of each respective PY.
      As required by WIA, the State of Ohio passed approximately 85 percent of its grant funds to
     Local Boards (subrecipients).

2.   Identify and summarize the WIA funds obligated by the State and Local Boards as of
     December 31, 2001, and calculate the amount and percentage of unobligated balances.

     Total obligations reported by Ohio as of December 31, 2001, were as follows:

                              Total              Total            Amount
                              Funds           Obligations       Unobligated           Percent
            Funding           Awarded          Per FSR            Per FSR           of Funding
            Period          (in millions)    (in millions)      (in millions)       Unobligated

            PY 1999/8         $   19.0            $   19.0        $   0                0%
            PY 2000           $   62.0            $   62.0        $   0                0%
            FY 2001           $   50.8            $   50.8        $   0                0%
            PY 2001           $   73.4            $   73.4        $   0                0%
            FY 2002           $   56.6            $   56.6        $   0                0%

            Total             $261.8              $261.8          $ 0                 0%



                                              5
     The information reported by the State reflects no unobligated balances for any of the WIA
     grants at December 31, 2001. This is due to the fact that the State did not report actual
     obligations incurred at the State or Local Board levels; rather, the State reported obligations
     equal to the total funds authorized by DOL.

     As discussed in further detail at item 10 of this report, Local Boards began reporting obligation
     data to the State in March 2002. We summarized Local Board and State obligations as of
     March 31, 2002:

                             Total Funds          Amount             Amount Percent
             Funding           Awarded           Obligated         Unobligated   of Funding
              Period         (in millions)      (in millions)      (in millions) Unobligated

             PY 1999/8          $   19.0             $   18.0         $ 1.0                 5.0%
             PY 2000            $   62.0             $   61.8         $ 0.2                 3.2%
             FY 2001            $   50.8             $   38.2         $ 12.6               24.8%
             PY 2001            $   73.4             $   19.4         $ 54.0               73.6%
             FY 2002            $   56.6             $   22.5         $ 34.1               60.2%

             Total              $261.8               $159.9           $101.9               38.9%

     The March 31, 2002, data reflect that the State and Local Boards had obligated 61.1 percent
     of the total available WIA funding to date, leaving 38.9 percent unobligated. We found that the
     unobligated balance of State level funding was $39.1 million or 71.3 percent of the total funds
     retained for State activities. The unobligated balance of local level funding was $62.8 million or
     30.3 percent of the total funds passed through to the Local Boards.

3.   Identify and summarize the WIA grant expenditures reported by the State as of
     December 31, 2001, and calculate the amount and percentage of unspent funding.

     Total WIA expenditures reported by Ohio through December 31, 2001, were as follows:

                             Total Funds           Total             Amount          Percent
             Funding           Awarded          Expenditures        Unspent of Funding
              Period         (in millions)      (in millions)     (in millions)     Unspent

             PY 1999/8          $   19.0          $ 17.6             $    1.4              7.4%
             PY 2000            $   62.0          $ 46.6             $   15.4             24.8%
             FY 2001            $   50.8          $ 29.1             $   21.7             42.7%
             PY 2001            $   73.4          $ .0               $   73.4            100.0%
             FY 2002            $   56.6          $ .0               $   56.6            100.0%

             Total              $261.8            $ 93.3             $168.5              64.4%


                                                 6
     Of the $261.8 million of total WIA funds awarded to Ohio, the State spent $93.3 million, 35.6
     percent of the total funds awarded, leaving a significant portion of its funding (64.4 percent)
     unspent as of December 31, 2001. The PY 2001 and FY 2002 funding years reflect that no
     funds have been spent as of December 31, 2001, even though several months have elapsed
     since the funds were awarded. We subsequently obtained cost information reported for the
     quarter ended March 31, 2002, and noted that 54 percent of the funds remained unspent as of
     that date.

4.   Determine if the expenditure amounts reported to DOL agree to the State and two
     Local Board’s accounting records.

     We compared the expenditure amounts reported to the DOL, and found that the amounts
     reported reconciled in all cases to the State’s grant costs system. We visited two Local
     Boards, and found that the amounts reported to the State reconciled to the Local Board’s
     accounting system.

5.   Calculate the amount and percentage of unspent funding by program component.

     The following provides a summary of the unspent funding by program component:

                                           Funds         Total         Amount           Percent
                                         Awarded Expenditures Unspent                 of Funding
           Program Component           (in millions) (in millions) (in millions)         Unspent

           Local Board Activities:
           Adults                         $   74.3        $ 31.5          $   42.8        57.6 %
           Youth                          $   74.6        $ 24.4          $   50.2        67.4 %
           Dislocated Worker              $   37.7        $ 17.7          $   20.0        53.1 %
           Local Admin                    $   20.7        $ 7.8           $   12.9        62.3 %
           Total Local Board
           Activities                 $ 207.3             $ 81.4          $ 125.9         60.7 %

           State Activities:
           State-Wide Activities          $ 36.8          $ 7.2           $ 29.6          80.4 %
           State Rapid Response           $ 17.7          $ 4.7           $ 13.0          73.4 %
           Total State Activities         $ 54.5          $ 11.9          $ 42.6          78.2 %

           Total Funding                  $ 261.8         $ 93.3          $ 168.5         64.4 %

     The cost data submitted by the State through December 31, 2001, indicate that the majority of
     WIA funds at both the State and Local Board levels were not spent as of that date (78.2
     percent and 60.7 percent, respectively).




                                                7
6.   Calculate the rate of expenditure for the State of Ohio’s WIA program as of the
     quarter ended December 31, 2001.

     From July 1, 2000 through December 31, 2001, the rate of expenditure for the WIA program
     has averaged approximately $1.2 million per week. At that rate, the State had about 2 ½ years
     of available funding as of December 31, 2001.

     The two Local Boards visited also had large unspent WIA fund balances. The WIA allocation
     for one Local Board was $5.9 million, yet the Local Board had only spent $2.5 million. In the
     other case, the Local Board’s PY 2001 allocation was $7.8 million, yet the Local Board had
     only spent $.97 million.

     We also obtained the FSRs for March 31, 2002. The reports showed that the State spent an
     additional $26 million in this quarter, leaving an unspent balance of $142 million, or
     54 percent of the total funds awarded. This cost activity indicates an acceleration of WIA
     expenditures for the latest quarter. However, even at this rate of expenditure, it would take
     more than 1 year to spend the existing funds available, in which time the State would have
     received additional allocations (the PY 2002 youth funding is available
     April 2002, and the remaining PY 2002 funding will be available July 2002 and October 2002).

7.   Identify potential reasons for the high percentage of unspent funds.

     According to State officials, the high percentage of unspent funds was due to the slow
     implementation of the WIA program. The transition from JTPA to WIA took longer than
     anticipated due to a significant reorganization within the State of Ohio that brought in many
     counties as local service areas that had little or no prior experience with JTPA. Under JTPA,
     the State of Ohio was organized into 31 Private Industry Councils/Boards that provided JTPA
     services to assigned State Counties. Under WIA, the State reorganized and increased the
     number of service areas. Currently, there are 8 WIA local areas, of which one local area has
     57 sub-areas.

     Furthermore, we were informed that many potential participants for the WIA program were
     enrolled instead in Temporary Assistance for Needy Families (TANF) programs. According to
     State officials, the Local Boards were informed that if TANF funding was not fully utilized within
     a given time period, the unspent funds would have to be remitted back to the State. The State
     indicated that participants were enrolled into TANF rather than WIA programs, because there
     were fewer restrictions for participant eligibility and for the use of TANF funds.




                                                 8
8.   Identify and summarize the total WIA payments received by the State of Ohio as of
     December 31, 2001, and calculate the resulting available cash.

     The following provides a summary of the funds withdrawn from the HHS/PMS system as of
     December 31, 2001, and the resulting available cash:

                              Total Costs            Total Cash             Cash
             Funding           Reported              Withdrawn             Available
              Period         (in millions)           (in millions)       (in millions)

             PY 1999/8          $ 17.6                 $ 9.3               $ (8.3)
             PY 2000            $ 46.6                 $ 61.2              $ 14.6
             FY 2001            $ 29.1                 $ 36.8              $ 7.7
             PY 2001            $   .0                 $ 15.3              $ 15.3
             FY 2002            $   .0                 $   .0              $   .0

             Total              $ 93.3                 $ 122.6             $ 29.3

9.   Determine if the amount of cash withdrawn by the State and Local Boards for the WIA
     program is reasonable based on the actual rate of expenditures, and that the resulting
     available cash is in compliance with the applicable regulations.

     The $29.3 million of available cash identified above represents cash drawn down in excess of
     costs incurred, as of December 31, 2001. Since the State averaged approximately $5.2 million
     of grant expenditures per month (from July 2000 through December 2001), the available cash
     represents approximately 6 months of cash needs.

     During the subsequent quarter (March 31, 2002), the State of Ohio received additional cash of
     $15 million and reported expenditures of $26 million, reducing the available cash to $18 million.
      However, additional funds totaling $10 million were drawn down in April and the first week of
     May 2002 against FY 2002 grants, even though no corresponding costs were reported for FY
     2002, as of March 31, 2002.

     The cash management regulations applicable to the WIA program require that cash advances be
     limited to the Aminimum amounts needed and shall be timed to be in accord only with the actual,
     immediate cash requirements of the State in carrying out a program or project@ (31 CFR
     205.20). Based on this criterion, the State of Ohio’s available cash for the WIA program is
     excessive.

     Our review of the State’s single audit reports indicated that since 1998, Ohio's auditors have
     reported that the State did not establish appropriate internal control procedures over cash
     management for the JTPA, and subsequently, the WIA program.




                                                 9
      We visited two Local Boards, and noted that Local Boards also had excessive available cash.
      Each Local Board we visited had over $2 million in available cash. One Local Board received
      cash advances of $4.7 million, but had only spent $2.5 million of its annual allocation (for the
      year ended June 30, 2001). The other Local Board received $3.3 million in cash advances
      from the State, but had only spent $970,000.

      The excessive available cash at the Local Boards were due to the State’s cash advance policies.
       We were informed that the State provided cash advances to the Local Boards equal to one-
      third of their total subgrant awards. According to State officials, the current advance system is
      being replaced with procedures that will satisfy cash management requirements applicable to
      WIA. We were informed the new procedures would be implemented in July 2002.

10.   Determine how the State reports obligations for Local Board activities (i.e., Adult,
      Dislocated Workers, Youth and Local Administration), and if the method used for
      reporting to the DOL is in compliance with instructions issued by ETA.

      The obligation amounts reported by Ohio for all Local Board activities represented the total
      amount of funds passed through to the Local Boards.

      This reporting practice was contrary to information provided by OGCM, who informed us that
      the states were instructed (in training) to report actual Local Board obligations, not the amount
      of funds passed through to the Local Boards. However, State officials believed obligations
      were reported in accordance with ETA instructions, claiming that they were instructed by their
      ETA regional monitor to report obligations equal to the total amount passed through to the
      Local Boards. We contacted the ETA monitor and verified that the State was, in fact, given
      these instructions.

      We also looked to the written reporting instructions issued by ETA. The written instructions do
      not specify whether or not the Local Board obligations or the State’s pass through awards
      should be included on these reports. As an example, the Youth reporting instructions define
      obligations as the sum of net outlays (i.e. expenditures) plus unliquidated obligations, which are
      defined as follows:

              Item 10. i. FEDERAL UNLIQUIDATED OBLIGATIONS are obligations
              incurred, but for which an outlay (expenditure) has not yet been recorded in the
              grantee’s books of account. This amount should include unliquidated
              obligations to subgrantees and contractors. (State has 90 days after all funds
              have been expended or the period of availability has expired to liquidate funds
              that were obligated during the period of performance.) [Training and
              Employment Guidance Letter No. 16-99, June 23, 2000, Attachment D.]

      According to State officials, beginning in March 2002, ETA requested that the State include the
      unliquidated portion of Local Board obligations on the quarterly FSRs, but only as footnoted
      information. The amount reported as “Total Federal Obligations” on the FSRs remained the
      same. That is, it includes the total amount passed through to the Local Boards.

                                                 10
11.   Determine if expenditure information is reported to ETA on the accrual basis of
      accounting, in accordance with the regulations at 29 CFR Part 97 and the WIA
      reporting instructions issued by ETA.

      WIA grantees are required to report accrued expenditures to ETA on a quarterly basis.
      However, neither the State nor the Local Boards consistently reported program expenditures
      utilizing the accrual basis of accounting. The State made attempts at
      estimating certain accruals, but the process was not all-inclusive. Program expenditures were
      typically reported on a cash basis. Cash-basis reporting is contrary to program regulations at
      20 CFR 667.300, which require reporting of accrued expenditures.

      In March 2002, the State instructed the Local Boards to include accrual information as part of
      the reporting process. However, the State does not believe that the accruals reported
      (approximately $8 million) represented all accrued expenditures for the WIA program. The
      State believed that additional refinements were necessary at the Local Boards to attain complete
      and accurate accounting of accrued expenditures.

12.   Determine what information is required to be reported by the Local Boards to the
      State, and if the reporting requirements established by the State ensure compliance
      with the program regulations at 20 CFR 667.300.

      Prior to March 2002, Local Boards were required to report cost and payment information to
      the State using the Quarterly Information Consolidated System (QUIC), an online reporting
      system. This information was transmitted to the State’s Central Office
      Reporting System where it was consolidated for reporting to the DOL. Contrary to the WIA
      program regulations at 20 CFR 667.300, cost information was reported on a cash rather than
      accrual basis. The Local Boards did not report obligations to the State.

      In March 2002, the State revised Local Board reporting requirements and instructed the
      Boards to report obligations (only the unspent portion) and accruals for costs incurred but not
      yet processed for payment. The accrual information was added to the cash-basis expenditures
      reported in the QUIC system, and was included in the “Total Federal Outlays” line of the
      FSRs. However, the Local Boards' obligations data were included as a footnote only. The
      State contends that it had not been instructed by ETA to report the Local Boards' obligations in
      the “Total Federal Obligations” line of the FSRs.




                                                 11
13.   Determine how the State tracks the various funding periods for both State activities
      and Local Board activities, and if data is accounted for in a manner that will allow costs
      to be matched against the appropriate obligation.

      Ohio has not tracked its WIA grants by funding period. The accounting and reporting system
      used for both the State and Local funds was not structured to identify costs incurred against a
      specific obligation. Rather, costs were recorded against the oldest available obligation. The
      subawards passed through to the Local Boards did not identify
      the funding period (PY or FY) under which the award was authorized. Likewise, the reporting
      to the State by the Local Boards did not identify the source of the funds spent during the
      reporting period.

      State officials indicated that Ohio recently initiated efforts to record costs incurred against the
      corresponding obligation, including requirements for the Local Boards to track and report
      expenditures by funding period. Implementation of these changes was expected to take place
      by July 2002.

14.   Determine the documentation used by the State to award the pass through allocations
      to the Local Boards. Based on the information obtained, determine if the State
      subaward document is in compliance with the requirements of the uniform grant
      administration procedures outlined at 29 CFR 97.37.

      Local Boards were notified of their funding allotments by means of a notification letter. A
      formally executed subgrant agreement was not used to document awards of WIA funds. The
      notification letters did not contain any of the information outlined in 29 CFR
      97.37. For example, this regulation requires that “every subgrant include clauses required by
      Federal statute and executive orders and their implementing regulations,” and that every cost
      reimbursement subgrant include a provision for compliance with 29 CFR 97.42, which sets
      forth the retention and access requirements for financial and programmatic records relative to
      the Federal grant or subgrant.

15.   Inquire as to the source of obligation, expenditure and/or payment information
      reported to the State by the Local Boards, and determine if the information reported
      agrees with the corresponding source accounting records.

      Expenditure and payment information was reported to the State using the QUIC system, and
      was derived directly from the Local Boards’ financial accounting systems. We traced
      expenditure and payment information reported in the QUIC to corresponding information
      recorded in the Local Boards’ financial accounting systems. We did not find any exceptions in
      data between the two systems.

      Obligation information was not reported to the State until March 2002. Reported obligations as
      of that date were supported by manual spreadsheets maintained by the Local Boards.

16.   Determine if Local Board cost information is reported on the accrual basis of
      accounting, in accordance with the regulations at 29 CFR Part 97 and the WIA
                                            12
      reporting instructions issued by ETA.

      The Local Boards did not maintain accounting records on an accrual basis, and prior to
      March 2002, were not required to report accrued expenditures. However, beginning in March
      2002, the State required Local Boards to report accrual information, in addition to the cash
      expenditures reported on the QUIC system.

17.   If obligation information is not required to be reported to the State, determine if the
      Local Board has accounted for their obligations in the official accounting system or in
      "cuff" records.

      Neither of the Local Boards visited accounted for obligations as part of their standard
      accounting and reporting systems. Records available at the Local Boards consisted of
      spreadsheets that listed subcontracts and purchase orders awarded to training agencies and
      other vendors.

18.   Determine how the Local Board defines “obligation,” and the point at which funds are
      conside red to be obligated. Determine if the Local Board definition meets the criteria
      defined in the program regulations at 20 CFR 660.300.

      Beginning in March 2002, the Local Boards began reporting unliquidated obligations to the
      State. Included in this amount was the unexpended portion of training subcontracts and
      purchase orders to certain vendors. Unliquidated obligations did not include payroll costs or
      recurring operating costs, such as utilities or repairs (these items are normally obligated at the
      time the expenditure is incurred). However, since the Local Boards reported cash-basis
      expenditures, accrued expenditures, and unliquidated obligations, it is possible to compute the
      total WIA obligations as defined in the program regulations. We believe that these practices are
      properly designed to provide obligation information that is substantially compliant with the
      regulations, beginning with the quarter ended March 31, 2002.

19.   If feasible (based on the records maintained by the Board), determine the percentage
      of total funding which has been obligated for either core, intensive, or training services
      which will be provided by one-stop centers or other outside training entities.

      For the two Local Boards visited, the obligations recorded (off ledger), as of March 2002,
      amounted to 49 percent of the total WIA funds awarded. These obligations were primarily
      made to outside training agencies or service providers.




                                                 13
20.   Inspect copies of the types of contracts issued for training services. Determine if the
      subcontracts for training services issued by the Local Board contain the required
      information and clauses as specified in the grant administration requirements at 29
      CFR Part 97.

      We obtained two training subcontracts issued by each of the Local Boards visited, and found
      the subcontracts to be substantially compliant with the uniform grant administration requirements
      of 29 CFR, Part 97.

      The subcontracts reviewed were formal contractual agreements which referred to the
      requirements and regulations applicable to WIA operations, and set forth the essential contract
      terms and conditions.

21.   Determine what information is required to be reported by the training subcontractors
      to the Local Boards, including the content, format, frequency and any written
      instructions issued by the Local Board. Based on the information obtained, determine
      if the Local reporting requirements are in compliance with the program regulations at
      20 CFR 667.300.

      Both of the Local Boards visited required training subcontractors to submit monthly reports
      containing both financial and program (participant) information. Examples of information
      reported include: expenditures by category, names of participants served, type of service
      provided, current status of participant, and outcomes achieved. Accordingly, the reporting
      requirements imposed on subcontractors by the Local Boards were considered to be
      substantially compliant with the program regulations.

22.   Determine how the Local Board tracks the various funding periods, and if data is
      reported and accounted for in a manner which will allow costs to be matched against
      the appropriate obligation or subcontract agreement.

      The State did not provide Local Boards with sufficient information to determine whether funding
      was of fiscal or program year origin. Therefore, the accounting and reporting of WIA financial
      data by the Local Boards did not include identification of activities by funding period. Local
      Boards' expenditure data were reported against an annual allotment; however, at the State level,
      the data were recorded against the earliest appropriation with available funding. Costs were not
      matched against corresponding obligations.

      According to State officials, Local Boards will be required to report program costs by the
      appropriate fiscal or program year, beginning in July 2002.




                                                 14
                                                                                              EXHIBIT I

                               FINANCIAL STATUS REPORT
                            LOCAL YOUTH PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local youth program activities.
                                                                                              EXHIBIT II

                               FINANCIAL STATUS REPORT
                            LOCAL AUDLT PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local adult program activities.
                                                                                           EXHIBIT III

                           FINANCIAL STATUS REPORT
                 LOCAL DISLOCATED WORKER PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local dislocated worker
program activities.
                                                                                         EXHIBIT IV

                                THE COMPLETE TEXT OF
                            OHIO’S RESPONSE TO THE DRAFT
                           AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Ohio’s response to our agreed-upon procedures report,
issued to them on August 15, 2002.
2
